No. 19-515
[N THE SUPREME COURT OF THE UNITED STATES
BALDASSARE AMATO, PETITIONER
V.

UNITED STATES OF AMERICA
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES IN OPPOSITION, via first-class mail, postage
prepaid, this 20TH day of December 2019.
ISee Attached Service Listj
As required by Supreme Court Rule 33.1(h), I certify that the document contain4441 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
December 20, 2019.

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
December 20, 2019.
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin's phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-05 15
AMATO, BALDASSARE
USA

DAVID I. SCHOEN
DAVID I. SCHOEN, ATTORNEY AT LAW
2800 ZELDA ROAD
SUITE 100-6
MONTGOMERY, AL 36106
334-395-6611
DSCHOEN593@AOL.COM

